Record Press Inc., 229 West 3Bth Street, New York, N.Y. 10018 •
Tel: (212) 619-4949 ■ Fax No. (212) 608-3141
STATE OF NEW YORK.
SS:

85748

AFFIDAVIT OF SERVICE

COUNTY OF NEW YORK
Howard DaniBls bBing duly sworn. dBposBs and says that dBponBnt is not party to thB action, and is ovBr 18 yBars of agB.
That on thB 18th day of January 2021 dBponBnt sBrvBd 3 copiBs of thB within

BRIEF FDR AMICUSCUHIAE
87 RELIGIOUS ORGANIZATIONS IN SUPPORT OF RESPONDENTS
upon thB attornBys at thB addrBssBs bBlow, and by thB following mBthod:

BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
Joshua A. KIBin
California DBpartmBnt of JusticB
1515 Clay StrBBt
Oakland, California, 84612-1413
(51 □) 622-2145
-and-

JBffrBy B. Wall
UnitBd StatBs DBpartmBnt of JusticB
850 PBnnsylvania AvBnuB, NW
Washington. District of Columbia 20530
(202) 514-2217

Attorneys for Petitioner
Dror Ladin
AmBrican Civil LibBrtiBs Union Foundation
125 Broad StrBBt. Fl 18
NBw York, NY 1 □ 004
(212) 284-7303
AttornBys for RBspondBnt

I, Howard DaniBls, dBclarB undBr pBnalty of pBrjury undBr thB laws of thB UnitBd StatBs of AmBrica that thB forBgoing is truB and
corrBct. ElXElCUtBd on January IS, 2021, pursuant to SuprBmEl Court RulB 28.5(c). All partiBs rBquirBd to bB sBrvBd, havB bBBn
sBrvBd.

Howard DaniBls

Sworn to me this
January IS, 2021
NADIA R. OSWALD HAMID
Notary Public, StatB of NBw York
No. OIDS61 □ 1366
llualifiBd in Kings County

~:123
Notary Public

Case Name: Trump v. SiBrra Club
Docket/Case No. 20-138

